                                                                             Report No. DODIG-2014-095



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              J U LY 2 5 , 2 0 1 4




                     Enhanced Army Global Logistics
                     Enterprise Basic Ordering
                     Agreements and Task Orders Were
                     Properly Executed and Awarded




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                Results in Brief
                                Enhanced Army Global Logistics Enterprise Basic
                                Ordering Agreements and Task Orders Were Properly
                                Executed and Awarded


July 25, 2014                                    Finding (cont’d)

Objective                                        In addition, ACC-RI’s process for awarding the five task orders
                                                 included:
We determined whether U.S. Army  Contracting
Command-Rock Island (ACC-RI) officials              •	 properly limiting competition on a set‑aside basis,
awarded Enhanced Army Global Logistics
                                                    •	 effectively evaluating proposals, and
Enterprise    (EAGLE)      basic    ordering
agreements  and task orders in accordance           •	 properly incorporating requirements defined by the Army
with    Federal   and    DoD      guidelines.          Sustainment Command.

                                                 ACC-RI streamlined the task order award process by conducting
Finding                                          evaluations for only those proposals that complied with
For the basic ordering agreements and the        submission requirements. Competing the task orders among the
task orders we reviewed, ACC-RI officials        established pool of qualified contractors should also increase
effectively executed EAGLE basic ordering        contract award efficiencies.
agreements and properly awarded task
orders in accordance with Federal and            Therefore, we are not making any recommendations.
DoD guidelines.

Specifically, for the 10 basic ordering
                                                 Management Comments and
agreements we reviewed, ACC‑RI’s process for     Our Response
executing basic ordering agreements included:    We provided a discussion draft to ACC‑RI officials on May 22, 2014.
                                                 We considered management comments on a discussion draft of
   •	 properly issuing requests for proposals,
                                                 this report when preparing the final report.
   •	 documenting required information, and

   •	 accurately verifying contractor
      registration.




Visit us at www.dodig.mil


                                                                      DODIG-2014-095 (Project No. D2014-D000CI-0086.000)│ i
            Recommendation Table
                                        Management          Recommendations Requiring Comment
             U.S. Army Contracting Command‑Rock Island    None




ii │ DODIG-2014-095 (Project No. D2014-D000CI-0086.000)
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                                  July 25, 2014

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Enhanced Army Global Logistics Enterprise Basic Ordering Agreements and
         Task Orders Were Properly Executed and Awarded
         (Report No. DODIG-2014-095)

We are providing this report for your information and use. For the basic ordering agreements
and the task orders we reviewed, the U.S. Army Contracting Command-Rock Island effectively
executed the 10 Enhanced Army Global Logistics Enterprise basic ordering agreements and
properly awarded the 5 Enhanced Army Global Logistics Enterprise task orders in accordance with
Federal and DoD guidelines.

We considered management comments on a discussion draft of this report when preparing the
final report.

We appreciate the courtesies extended to the staff. Please direct questions to Deborah Carros
at (703)  604‑9217 (DSN 664‑9217). If you desire, we will provide a formal briefing on
the results.




                                           Daniel R. Blair
                                           Deputy Inspector General
                                            for Auditing




                                                                                        DODIG-2014-095 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Review of Internal Controls_____________________________________________________________________2

                  Finding. ACC-RI Properly Executed Basic Ordering
                  Agreements and Awarded Task Orders_______________________________3
                  ACC-RI Properly Executed Basic Ordering Agreements_______________________________________3
                  ACC-RI Properly Awarded Five Task Orders___________________________________________________6
                  Summary_ ______________________________________________________________________________________ 10

                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 11
                      Review of Documentation and Interviews_______________________________________________ 11
                      Use of Computer-Processed Data ________________________________________________________ 14
                      Use of Technical Assistance_______________________________________________________________ 14
                      Prior Coverage_____________________________________________________________________________ 14
                  Appendix B. Federal and DoD Guidance_____________________________________________________ 15
                  Appendix C. Fort Benning Award Protests_ _________________________________________________ 17

                  Acronyms and Abbreviations______________________________________________ 18




iv │ DODIG-2014-095
                                                                                                                          Introduction




Introduction
Objective
Our objective was to determine whether U.S. Army Contracting Command‑Rock
Island  (ACC‑RI) officials awarded Enhanced Army Global Logistics Enterprise  (EAGLE)
basic ordering agreements1 and task orders2 in accordance with Federal and DoD
guidelines. See Appendix A for the scope and methodology and prior coverage related
to the objective.


Background
According to the EAGLE Acquisition Strategy, the EAGLE contract program is
the U.S.  Army’s $23.8 billion contracting strategy designed to streamline the
acquisition of logistics services (maintenance, supply, and transportation) at
U.S.  Army installations.  The objective of this program is to provide global logistics
services that meet the Army’s logistics mission needs in the most efficient and
cost‑effective manner at approximately  80  U.S. Army installations.  Additional
program goals include improving competition and increasing the opportunities for
small businesses to become prime contractors.  In September  2012, the program
began establishing a pool of qualified contractors by executing no‑cost basic ordering
agreements.  ACC‑RI competed task orders among the basic ordering agreement holders
and awarded the first task order in September  2013.  As a result, task orders are
awarded to prime contractors responsible for all identified support services at a
U.S. Army installation.  Program officials intend to improve competition by using a
multi‑step acquisition process that includes basic ordering agreements and continuously
refreshing the pool of basic ordering agreement holders.  The program also
provides small businesses the opportunity to become prime contractors by
using set‑aside contracts with annual values of no more than $35.5  million.

ACC-RI and the Army Sustainment Command  (ASC), in Rock Island, Illinois, are
responsible for implementing the EAGLE contract program.  ACC-RI established
an EAGLE contracting office for awarding EAGLE service contracts.  ASC is
responsible for managing and overseeing installations’ logistics mission and has an
EAGLE team to support ACC-RI.



	1	
    A basic ordering agreement is a written instrument of understanding negotiated between a contracting activity or
    contracting office and a contractor.
	2	
    A task order is an order for services placed against an established contract or with Government sources.




                                                                                                                       DODIG-2014-095 │ 1
Introduction



                 As of February 2014, ACC-RI executed 128 basic ordering agreements.  As of
                 March  2014, ACC-RI awarded 5  task orders valued at approximately $246.9  million.  
                 Of the 128 basic ordering agreement holders, 50 were large businesses and
                 78  were small businesses.  Of the five task orders, ACC‑RI awarded one task
                 order to a large business and four task orders to small businesses.  The
                 table summarizes the task orders awarded as of March 2014 for the EAGLE
                 contract program.

                 Table. Summary of Awarded Task Orders for the EAGLE Contract Program

                                                                                                  Estimated
                                                                                       Business
                       U.S. Army Installation   Award Date         Contractor                       Value
                                                                                         Size     (millions)
                     U.S. Army Reserve           Sept. 3,
                     Command, North Carolina      2013            XOTECH, LLC           Small      $3.8
                                                 Sept. 12,   DynCorp International,
                     Fort Campbell, Kentucky       2013               LLC               Large     122.5
                                                 Sept. 27,
                     Fort Gordon, Georgia          2013      Wolverine Services, LLC    Small      80.7
                     Redstone Arsenal,           Sept. 27,
                     Alabama                       2013           Technica, LLC         Small      27.5
                     Presidio of Monterey,       Feb. 24,
                     California                   2014         Tech Systems, Inc.       Small      12.4
                      Total                                                                       $246.9


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                 May  30, 2013, requires DoD organizations to implement a comprehensive system
                 of internal controls that provides reasonable assurance that programs are
                 operating as intended and to evaluate the effectiveness of the controls.  ACC‑RI’s
                 internal controls for awarding contracts were effective as they applied to
                 the audit objective.




2 │ DODIG-2014-095
                                                                                                                                        Finding




Finding
ACC-RI Properly Executed Basic Ordering Agreements
and Awarded Task Orders
For the 10 basic ordering agreements and the 6 task orders we reviewed,3
ACC-RI officials effectively executed 10 EAGLE basic ordering agreements and
properly awarded 5 task orders in accordance with Federal and DoD guidelines.  

Specifically, for the 10 basic ordering agreements reviewed, ACC-RI’s process for
executing basic ordering agreements included:

        •	 properly issuing requests for proposals,

        •	 documenting required information, and

        •	 accurately verifying contractor registration.

In addition, ACC-RI’s process for awarding the five task orders included:

        •	 properly limiting competition on a set-aside basis,

        •	 effectively evaluating proposals, and

        •	 properly incorporating requirements defined by ASC.

ACC-RI streamlined the task order award process by evaluating only those proposals
that        complied        with      submission          requirements.  Competing                   the     task      orders
among the established pool of qualified contractors should also increase contract
award efficiencies.



ACC-RI Properly Executed Basic Ordering Agreements
For the 10 basic ordering agreements we reviewed, ACC-RI contracting personnel
conducted the basic ordering agreement process in accordance with Federal
Acquisition Regulation (FAR) requirements.  Specifically, ACC-RI issued requests
for proposals, documented required information in basic ordering agreements, and
verified contractor registration.  As of February 2014, ACC-RI personnel completed


	 3	
       Although we reviewed six task orders as of February 2014, the task order reviewed for Fort Benning was terminated for
       convenience during the audit, and as of June 2014, the Fort Benning task order has still not been awarded. See Appendix C
       for details on the Fort Benning award protests.



                                                                                                                               DODIG-2014-095 │ 3
Finding



                 three rounds of basic ordering agreement solicitations, resulting in 128 basic
                 ordering agreements.  See Appendix A for more information related to the 10 basic
                 ordering agreements reviewed.  

                 ACC-RI initiated the basic ordering agreement process by issuing a request for
                 proposals on the Federal Business Opportunities website.  Interested contractors
                 submitted their proposals to ACC-RI personnel who reviewed contractors’
                 proposals and:

                               •	 reviewed for recent and relevant references,

                               •	 assessed past performance,

                               •	 verified contractor’s registration in the System for Award Management (SAM)
                                   database, and

                               •	 issued letters of acceptance.

                 Additionally, ASC assisted ACC-RI in reviewing proposals by verifying contractors’
                 work experience and conducting legal reviews.  After reviewing the contractors’
                 proposals, ACC-RI selected qualified contractors, issued each qualified contractor
                 a basic ordering agreement execution memorandum, and executed the basic
                 ordering agreements.


                 Contracting Officials Properly Issued Requests for Proposals
                 The EAGLE contract program promoted competition by having ACC-RI officials
                 issue multiple requests for proposals for basic ordering
                 agreements and expanding its group of qualified
                 contractors eligible to compete for task orders.  As                                           The
                                                                                                          EAGLE contract
                 of February  2014, ACC‑RI issued three requests
                                                                                                        program promoted
                 for proposals for basic ordering agreements,4 and                                    competition by having
                 each request for proposals included:                                              ACC-RI officials issue multiple
                                                                                                    requests for proposals for
                               •	 a description of the Government’s                                 basic ordering agreements
                                   requirement,                                                      and expanding its group
                                                                                                     of qualified contractors
                               •	 terms and conditions of the agreement,                              eligible to compete for
                                                                                                            task orders.



                 	4	
                       ACC-RI personnel stated that ACC-RI issued a fourth request for proposals but had not executed basic ordering agreements
                       for this request for proposals as of the audit team’s site visit in February 2014. See Appendix A for details on the
                       methodology for limiting the scope of the review of the basic ordering agreements.  




4 │ DODIG-2014-095
                                                                                                                                       Finding



              •	 information required in the contractor’s proposal, and

              •	 factors and significant subfactors used to evaluate each proposal.

FAR Subpart 15.2, “Solicitation and Receipt of Proposals and Information,”
requires         this     information         to    be     included        in     requests       for     proposals.  We
reviewed the three requests for proposals for the basic ordering agreements and
determined that ACC-RI issued the requests for proposals in accordance with
FAR subpart 15.2.  See Appendix B for more information related to Federal and
DoD guidance.  All three requests for proposals stated that contractors will be
evaluated for similar experience5 and past performance.  The contractor is required to
provide narrative evidence to support the proposed capabilities or similar experience
listed in their proposal.  ASC personnel determined whether the evidence was
technically acceptable or unacceptable.  ACC‑RI personnel evaluated proposals for
past performance, including recent and relevant references.  We reviewed contract
documentation and determined that ACC‑RI and ASC personnel evaluated all 10  basic
ordering agreement holders for similar experience and past performance.


Basic Ordering Agreements Contained Required Documents
All 10 basic ordering agreements contained the information required to execute
a basic ordering agreement, and ACC-RI personnel updated the basic ordering
agreements as necessary.  FAR 16.703, “Basic Ordering Agreements,” states
that a basic ordering agreement is not a contract; it also lists the information
required to be in a basic ordering agreement and requires an annual review.  The
annual review involves updating information by modifying the basic ordering
agreement.  The FAR states that each executed basic ordering agreement
should include the:

              •	 method for determining prices,

              •	 delivery terms and conditions,

              •	 Government activities authorized to issue orders,

              •	 point at which the order becomes a binding contract, and

              •	 process for handling price disputes.  




	5	
      Offeror proposes organizational capability and demonstrates experience in performing services similar to the required
      maintenance, supply, and transportation support services detailed in the basic ordering agreement performance
      work statement.




                                                                                                                              DODIG-2014-095 │ 5
Finding



                 We reviewed each basic ordering agreement and documentation supporting the
                 agreement and determined that all 10  basic ordering agreements included the
                 required information.  For example, the basic ordering agreement executed with
                 ABM Government Services, LLC included pricing methods, delivery conditions,
                 authorized activities, a statement indicating that the task order is a binding
                 agreement, and the process for a price dispute.  In addition, when ABM Government
                 Services,  LLC changed its company name, ACC‑RI personnel included this
                 information in the annual basic ordering agreement review.


                 Contractor Registration Was Verified
                 ACC-RI         contracting        personnel         verified      that     each      basic      ordering        agreement
                 holder was registered in the SAM database6 before they executed the basic
                 ordering agreement, as required by FAR Subpart 4.11, “System for Award
                 Management.”              We reviewed contract files for the 10 basic ordering agreement
                 holders for proper documentation of contractor registration.  Of the 10 basic
                 ordering agreement holders, 5 were registered in SAM at the time of basic ordering
                 agreement execution.  The other five did not have registrations in SAM at the time
                 ACC-RI executed the basic ordering agreement because the SAM database was not
                 accessible.  Therefore, for the five basic ordering agreements not registered
                 in SAM, ACC-RI verified basic ordering agreement registration in the Central
                 Contractor Registry and Excluded Parties List System.  For these five basic
                 ordering agreement holders, ACC-RI personnel ensured registration in SAM
                 during the annual basic ordering agreement reviews.


                 ACC-RI Properly Awarded Five Task Orders
                 For the five task orders awarded as of March 2014, ACC-RI conducted the task
                 order process in accordance with FAR requirements.  Specifically, ACC-RI limited
                                                   competition as appropriate, effectively evaluated proposals
                               For                      to assess the factors specified in the solicitation, and
                          the five task                    properly         incorporated            the      requirements            defined
                        orders awarded                       by ASC.
                       as of March 2014,
                     ACC-RI conducted the
                     task order process in                   Information in the contract files for the six task
                     accordance with FAR                     orders we reviewed indicated that ACC‑RI initiated the
                         requirements.                      task order process by issuing a request for proposals


                 	6	
                       SAM consolidated the use of multiple Federal procurement systems, such as the Central Contractor Registry, the Federal
                       Agency Registration, the Online Representatives and Certifications Application, and the Excluded Parties List System.




6 │ DODIG-2014-095
                                                                                                                                    Finding



to the pool of qualified basic ordering agreement holders.  ACC-RI documented the
source selection approach in the requests for proposals.  ACC-RI issued each
request for proposals on an unrestricted basis or as a small business set-aside,
depending on the dollar value of the task order.  ACC-RI received proposals
from basic ordering agreement holders, and contracting personnel reviewed
the proposals to determine whether the proposals were properly formatted and
complete.  If a proposal did not meet submission requirements,7 ACC‑RI and
ASC did not evaluate it further.  ASC evaluated proposals that complied with the
submission requirements to determine the technical acceptability of the proposals
against the criteria stated in the request for proposals.

For the technically acceptable proposals,

               •	 ACC-RI personnel performed:

                             {{   cost evaluations to determine whether proposed costs were
                                  reasonable and realistic; and

                             {{   past performance evaluations to review the offerors’ performance
                                  on previous contracts.

               •	 ASC personnel conducted a small business evaluation, which included either:

                             {{   verifying small business status of small businesses and 8(a)
                                  set‑asides, or

                             {{   reviewing small business participation in unrestricted source
                                  selections.

ACC‑RI and ASC personnel briefed the source selection authority on a summary
of the evaluation results for technically acceptable proposals and provided
their recommendation.  The source selection authority compared the proposal
evaluation results of the proposals within the competitive range, determined
the offeror that provided the best overall value to satisfy the Government
requirements, and documented the recommendation in the source selection decision
document.  The ASC legal office completed a legal review of the source selection
decision document, and ACC‑RI awarded the task order to the recommended offeror.




	 7	
       Section L, “Instructions, Conditions, and Notices to Offerors,” of the requests for proposals detailed submission
       requirements that included instructions for page limits, required attachments, and the proposal structure.




                                                                                                                           DODIG-2014-095 │ 7
Finding



                 Contracting Officials Properly Limited Competition on a
                 Set‑Aside Basis
                 The EAGLE contract program awarded task orders on a restricted/set-aside basis
                 for contracts with an annual value of greater than $1 million but less than or equal
                 to $35.5  million.8 FAR Subpart 6.2, “Full and Open Competition After Exclusion of
                 Sources,” allows the Government to limit competition to fulfill statutory requirements
                 by using set-asides.  ACC-RI provided small businesses more opportunity to become
                 prime contractors by using small business set-asides.  ACC-RI solicited four of
                 the five awarded task orders on a restricted/set‑aside basis.  Specifically, ACC-RI
                 awarded two restricted task orders to small business concerns and the other two
                 task orders using a section 8(a) competition.  The Small Business Administration
                 defines a small business concern as “one that is independently owned and operated, is
                 organized for profit, and is not dominant in its field.” According to the Small Business
                 Administration, the 8(a) program further limits the competition to small disadvantaged
                 businesses.  We reviewed the requests for proposals associated with the six task
                 orders and determined that the requests for proposals clearly stated who could
                 respond to the solicitation.


                 Proposals Were Effectively Evaluated
                 ACC-RI and ASC performed reviews and evaluations to determine the offeror who
                 would provide the best value for the Government.  ACC-RI awarded EAGLE task
                 orders using either the tradeoff process or the lowest price technically acceptable
                 source       selection        process.9  The            tradeoff       process        permits        tradeoffs        among
                 cost/price and non‑cost factors and allows the Government to accept other
                 than the lowest offeror or other than the highest technically rated offeror.  We
                 reviewed each of the six requests for proposals and determined that the requests
                 for proposals clearly specified the process that would be used for the basis of
                 award.  For example, ASC and ACC-RI conducted a technical evaluation and a
                 cost/price evaluation for all six task orders to assess the relative strengths, deficiencies,
                 and risks to the factors and sub-factors specified in the solicitation, as required
                 by FAR 15.305, “Source Selection Proposal Evaluation.”                                     ACC‑RI performed past
                 performance evaluations for five out of six task orders.  ACC-RI did not perform a
                 past performance evaluation on the Presidio of Monterey task order because past
                 performance was not an evaluation factor listed in the solicitation; the request

                 	 8	
                     If a task order was previously in the 8(a) program, it will remain in the 8(a) program. Fort Gordon had requirements that
                     were previously solicited and awarded via the 8(a) program; this task order was issued as an 8(a) set-aside procurement.
                 	9	
                     The lowest price technically acceptable source selection process is used in competitive negotiated contracting where the
                     best value is expected to result from selection of the technically acceptable proposal with the lowest evaluated price.




8 │ DODIG-2014-095
                                                                                             Finding



for proposals stated that the lowest price technically acceptable source selection
process was the best value.  FAR 15.304, “Source Selection Evaluation Factors
and Significant Subfactors,” requires the contracting officer to document the
reason past performance was not an evaluation factor in this acquisition; ACC-RI
determined that it was unlikely that the offeror would receive an unsuccessful past
performance rating for this task order because EAGLE basic ordering agreement
holders already demonstrated an acceptable level of past performance.  Therefore,
ACC-RI found the risk of not performing a past performance evaluation on this
task order to be minimal.

In addition, ASC performed either a small business utilization plan review or
small business verification for all awarded task orders.  Specifically, for the one
task order awarded to a large business, ASC personnel evaluated the extent to
which the offerors identified and committed to using small businesses in the
performance of the task order.  The EAGLE contract program required large
businesses to subcontract to small businesses and have a small business participation
target of 39 percent based on total contract value to maximize small business
participation.  We reviewed contract files for Fort Benning and Fort Campbell
and determined that ASC reviewed a small business plan.  For the four task
orders awarded to small businesses, ASC personnel also verified the offerors’
small business status.  We reviewed the contract files for the remaining four
task orders and determined ASC verified the small business status within
the SAM database.


Army Sustainment Command Properly Defined Requirements
As a part of the task order process, ASC personnel supported ACC-RI by
working with Army installation officials to define the requirements for each
task order.  Specifically, ASC prepared a procurement package input for all six
task orders we reviewed as required by FAR Subpart 37.6, “Performance-Based
Acquisition.”   FAR subpart 37.6 states that a performance‑based contract for
services   includes   a   performance   work   statement,   measurable   performance
standards, and performance incentives, where appropriate.  For each of the six
task orders, we reviewed the contract file for the procurement package input.  The
procurement package input included key documents such as the independent
government cost estimate, performance work statement, performance requirements
summary, and the quality assurance surveillance plan.  Consequently, ACC‑RI
awarded EAGLE task orders in accordance with FAR requirements.




                                                                                    DODIG-2014-095 │ 9
Finding



                 Summary
                 For the 10 basic ordering agreements reviewed, ACC-RI officials promoted
                 competition to qualified contractors by executing the basic ordering agreements
                 in accordance with Federal guidelines.  ACC-RI properly issued requests for
                 proposals, included required information in basic ordering agreements, and
                 accurately verified contractor registration.  ACC-RI officials awarded the five task
                 orders, valued at approximately $246.9  million, in accordance with Federal and
                 DoD guidelines.  ACC-RI properly limited competition on a set-aside basis,
                 effectively evaluated proposals, and documented its source selection approach.  ASC
                 supported ACC-RI by defining task order requirements.  Overall, ACC‑RI effectively
                 executed the EAGLE basic ordering agreements and awarded EAGLE task orders
                 we   reviewed   in   accordance   with   Federal   and   DoD   guidelines.  Therefore,
                 we are not making any recommendations.




10 │ DODIG-2014-095
                                                                                        Appendixes




Appendix A
Scope and Methodology
We conducted this performance audit from January 2014 through July 2014 in
accordance with generally accepted government auditing standards.  Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit
objective.  We believe that the evidence obtained provides a reasonable basis for
our finding and conclusions based on our audit objective.


Review of Documentation and Interviews
The audit team reviewed 10 basic ordering agreements and 6 task orders to
determine whether ACC-RI executed basic ordering agreements and awarded task
orders in accordance with FAR and DoD guidelines.  We considered the following
Federal and DoD guidelines to determine whether ACC-RI contracting personnel
properly conducted the basic ordering agreement and task order processes:

        •	 FAR Subpart 4.11, “System for Award Management,”

        •	 FAR 6.203, “Set-Asides for Small Business Concerns,”

        •	 FAR 6.204, “Section 8(a) Competition,”

        •	 FAR 15.101, “Best Value Continuum,”

        •	 FAR 15.203, “Requests for Proposals,”

        •	 FAR Subpart 15.3, “Source Selection,”

        •	 FAR 16.703, “Basic Ordering Agreements,”

        •	 FAR Subpart 37.6, “Performance-Based Acquisition,” and

        •	 DoD Source Selection Procedures.

See Appendix B for more information on these guidelines.

From September 2012 to February 2014, ACC-RI completed three rounds
of solicitations, resulting in a pool of 128 basic ordering agreement holders
(50  large businesses and 78 small businesses).  ACC-RI personnel stated that
ACC‑RI issued a fourth request for proposals but the audit team limited the scope
of the review to the three rounds of basic ordering agreements that had been



                                                                                   DODIG-2014-095 │ 11
Appendixes



                 awarded as of February 2014.  From the pool of 128 basic ordering agreement
                 holders, ACC-RI issued solicitations for a single logistics support provider at each
                 of 14 U.S. Army installations.  

                 As of March 2014, the EAGLE contract program awarded six task orders, and
                 terminated one of the task orders.  The task order for Fort Benning was
                 terminated for convenience during the audit and, as of June 2014, the Fort Benning
                 task order has not been awarded.  We reviewed pre-award documentation for
                 the six task orders, including requests for proposals, technical evaluations, past
                 performance evaluations, cost evaluations, source selection plans, and source
                 selection decision documents.  See Appendix C for details on the Fort Benning
                 award protests.  

                 For the 10 basic ordering agreements reviewed, 6 basic ordering agreements
                 were associated with the awarded task orders as of February 24, 2014.  All six
                 basic ordering agreements were executed in the first basic ordering agreement
                 round.  We     nonstatistically    selected   additional   basic   ordering   agreements
                 to evaluate the ACC-RI basic ordering agreement process for all three rounds
                 completed.  The additional four basic ordering agreements reviewed included
                 one large business and one small business from each of the two additional basic
                 ordering agreement rounds conducted.  For the 10  basic ordering agreements, we
                 reviewed ACC‑RI requests for proposals, ACC‑RI and ASC evaluation documents of
                 contractor proposals, and documentation for contractor registration.  See the Table
                 for the 10 basic ordering agreements and 6 task orders we reviewed.  




12 │ DODIG-2014-095
                                                                                                         Appendixes



Table. Basic Ordering Agreements and Task Orders Reviewed
  
                                 Basic                    Basic
         Basic Ordering        Ordering                 Ordering                     Task Order
        Agreement Holder                      Size                    Task Order
                              Agreement                Agreement                        Date
             Name               Round                     Date

                                                                                     Termination
      ABM Government                                    Sept. 28,        Fort
 1                                 1         Large                                       for
      Services, LLC                                       2012         Benning      Convenience*

      Advanced Technology                                Jan. 11,
 2                                 2         Small                        N/A            N/A
      Logistics, Inc.                                     2013
 3    AKG Services, LLC            3         Small     Aug. 1, 2013       N/A            N/A
      DynCorp                                           Sept. 28,        Fort          Sept. 12,
 4                                 1         Large
      International, LLC                                  2012         Campbell          2013
                                                        Sept. 28,     Presidio of
 5    Tech Systems, Inc.           1         Small                                  Feb. 24, 2014
                                                          2012        Monterey
                                                        Sept. 28,      Redstone        Sept. 27,
 6    Technica, LLC                1         Small        2012          Arsenal          2013
                                                         Aug. 1,
 7    TSI Corp.                    3         Large                        N/A            N/A
                                                          2013
      VT Griffin Services,                               Jan. 18,
 8                                 2         Large                        N/A            N/A
      Inc.                                                2013
      Wolverine Services,                               Sept. 28,        Fort          Sept. 27,
 9                                 1         Small
      LLC                                                 2012          Gordon           2013
                                                                      U.S. Army
                                                        Sept. 28,
 10   XOTECH, LLC                  1         Small                     Reserve      Sept. 3, 2013
                                                          2012        Command
 *ACC-RI awarded the Fort Benning task order to ABM Government Services, LLC on
 September 13, 2013. On February 27, 2014, ACC-RI terminated the task order for convenience.
 ACC-RI has not awarded the Fort Benning task order as of June 2014. See Appendix C for details
 on the Fort Benning award protests.


We met with ACC-RI contracting officials and ASC EAGLE team personnel to
discuss the processes for executing basic ordering agreements and awarding
task orders and their roles associated with each process.  We met with ACC‑RI
contracting personnel and cost personnel and ASC requirements personnel
and small business personnel during our site visit to Rock Island, Illinois, from
February 3–7, 2014.




                                                                                                    DODIG-2014-095 │ 13
Appendixes



                 Use of Computer-Processed Data
                 We did not rely on computer-processed data to perform this audit.


                 Use of Technical Assistance
                 We did not use technical assistance during this audit.


                 Prior Coverage
                 During the last 5  years, the Department of Defense Inspector General (DoD IG)
                 issued   six    reports   discussing   awarding     task   orders    and    ACC-RI    officials’
                 contracting     practices.  Unrestricted      DoD IG   reports      can    be     accessed   at
                 http://www.dodig.mil/pubs/index.cfm.


                 DoD IG
                 Report No. DODIG-2014-042, “Naval Facilities Engineering Command Washington
                 Properly Awarded Task Orders for Services,” February 28, 2014

                 Report No. DODIG-2013-007, “Award and Administration of Multiple Award
                 Contracts at Naval Facilities Engineering Command Specialty Centers Need
                 Improvement,” October 26, 2012

                 Report    No.    DODIG-2012-138,       “Wholesale      Accountability      Procedures    Need
                 Improvement      for   the   Redistribution    Property    Assistance      Team    Operations,”
                 September 26, 2012

                 Report No. DODIG-2012-076, “Army Contracting Command-Rock Island Contracts
                 Awarded Without Competition Were Properly Justified,” April 19, 2012

                 Report No. DODIG-2012-033, “Award and Administration of Multiple Award
                 Contracts for Services at U.S. Army Medical Research Acquisition Activity
                 Need Improvement,” December 21, 2011

                 Report No. DODIG-2011-078, “Contracts Supporting Base Operations in Kuwait
                 Need Stronger Management and Administration,” June 30, 2011




14 │ DODIG-2014-095
                                                                                                      Appendixes




Appendix B
Federal and DoD Guidance
We evaluated whether the contracting officials properly executed the 10 basic
ordering agreements and awarded the 5 task orders; we considered the following
guidance during the audit:

FAR Subpart 4.11, “System for Award Management,” prescribes policies and
procedures for requiring contractor registration in the SAM database to increase
visibility of vendor sources (including their geographical locations) for specific
supplies and services; and establishes a common source of vendor data for
the Government.

FAR Subpart 6.2, “Full and Open Competition After Exclusion of Sources,”
prescribes policy and procedures for providing full and open competition
after excluding one or more sources and allows using set-asides and limiting
competition to fulfill statutory requirements.  Specifically, FAR 6.203, “Set‑asides
for small business concerns,” and 6.204, “Section 8(a) competition,” state that
no separate justification or determination is required to set-aside a contract
action for small business concerns or to limit competition to eligible 8(a) contractors.

FAR Subpart 15.1, “Source Selection Processes and Techniques,” describes
some of the acquisition processes and techniques that may be used to design
competitive acquisition strategies suitable for the specific circumstances of the
acquisition.  Specifically,

        •	 FAR 15.101-1, “Tradeoff process,” describes using a tradeoff process
            when it is in the best interest of the Government to consider award to
            other than lowest priced offeror or other than the highest technically
            rated offeror.

        •	 FAR     15.101-2,     “Lowest     price     technically    acceptable,”    states   that
            the    lowest     price   technically     acceptable     source   selection   process
            is    appropriate     when     best      value   is    expected   to     result    from
            selection of the technically acceptable proposal with the lowest
            evaluation price.




                                                                                                 DODIG-2014-095 │ 15
Appendixes



                 FAR Subpart 15.2, “Solicitation and Receipt of Proposals and Information,”
                 prescribes policies and procedures for preparing and issuing requests for proposals;
                 and receiving proposals and information.  Specifically, FAR 15.203, “Requests
                 for proposals,” states requests for proposals are to communicate Government
                 requirements to prospective contractors.  In addition, requests for proposals describe
                 the factors and significant sub-factors that will be used to evaluate the proposals
                 and their relative importance.

                 FAR Subpart 15.3, “Source Selection,” prescribes policies and procedures for
                 selection of a source or sources in competitive negotiated acquisitions.  Specifically,
                 FAR 15.305, “Proposal evaluation,” states, “an agency shall evaluate competitive proposals
                 and then assess their relative qualities solely on the factors and sub-factors specified
                 in the solicitation.”  The subpart also states, “The relative strengths, deficiencies,
                 significant weaknesses, and risks supporting proposal evaluation shall be documented
                 in the contract file.”

                 FAR    Subpart     16.7,       “Agreements,”    prescribes     policies     and     procedures   for
                 establishing    and       using   basic    agreements    and     basic     ordering     agreements.  
                 Specifically, FAR 16.703, “Basic ordering agreements,” describes what should be
                 included in a basic ordering agreement.  A basic ordering agreement is not a
                 contract and does not state or imply any agreement by the Government to place
                 future contracts or orders with the contractor or be used in any manner to
                 restrict competition.  FAR 16.703 also states that each basic ordering agreement
                 should be reviewed annually.

                 FAR    Subpart      37.6,       “Performance-Based       Acquisition,”          prescribes   policies
                 and   procedures         for   acquiring   services   using    performance-based         acquisition
                 methods.  Specifically,        FAR   37.601,   “General,”     states     that    performance‑based
                 contracts for services should include a performance work statement, measurable
                 performance standards, and performance incentives where appropriate.

                 “DoD Source Selection Procedures,” March 4, 2011, provides the DoD procedures
                 for conducting competitively negotiated source selections and outlines a common
                 set of principles and procedures for conducting such acquisitions.  The goal of this
                 document is to ensure the Department’s source selection process delivers quality,
                 timely products and services to the warfighter and the Nation at the best value
                 for the taxpayer.  




16 │ DODIG-2014-095
                                                                                     Appendixes




Appendix C
Fort Benning Award Protests
ACC-RI awarded the Fort Benning task order to ABM Government Services, LLC
on September 13, 2013.      The Logistics Company, Inc. filed a protest with the
U.S.  Government Accountability Office (GAO) on September 23, 2013. As a result,
ACC‑RI issued a Stop Work Order on September 23, 2013. VS2, LLC filed a protest
with GAO on October 2, 2013.         Thereafter, ACC-RI elected to take corrective
action and subsequently GAO dismissed the protests as academic.

On February 27, 2014, ACC-RI decided to award the task order to VS2, LLC. The
Logistics Company, Inc. filed a protest with GAO on March 7, 2014. The Logistics
Company, Inc. filed a supplemental protest on April 22, 2014.     ACC-RI issued a
Stop Work Order to the awardee (VS2, LLC) on March  11, 2014. On April 30, 2014,
ACC-RI elected to take corrective action on The Logistics Company, Inc.’s protest
and GAO dismissed this protest as academic on May 1, 2014.

The corrective action was ongoing as of June 2014.




                                                                                DODIG-2014-095 │ 17
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                      ACC-RI Army Contracting Command-Rock Island
                        ASC Army Sustainment Command
                      EAGLE Enhanced Army Global Logistics Enterprise
                        FAR Federal Acquisition Regulation
                       GAO Government Accountability Office
                       SAM System for Award Management




18 │ DODIG-2014-095
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
